Semiannual Report to Congress October 1, 2009-March 31, 2010
Skip top navigation
Skip to content
Español | Other Languages
U.S. Equal EmploymentOpportunity Commission
Home
About EEOC
Overview
The Commission
Meetings of the Commission
Open Government
Newsroom
Laws, Regulations, Guidance & MOUs
Budget & Performance
Enforcement & Litigation
Initiatives
Interagency Programs
Publications
Statistics
Outreach & Education
Legislative Affairs
FOIA & Privacy Act
Doing Business with EEOC
Jobs & Internships
EEOC History
Office of Inspector General
Employees & Applicants
Overview
Coverage
Timeliness
Filing A Charge
How to File
Charge Handling
Confidentiality
Mediation
Remedies
Existing Charges
Filing a Lawsuit
Discrimination by Type
Age
Disability
Equal Compensation
Genetic Information
Harassment
National Origin
Pregnancy
Race/Color
Religion
Retaliation
Sex
Sexual Harassment
Prohibited Practices
Employers
Overview
Coverage
Charge Handling
Resolving a Charge
Remedies
Discrimination by Type
Age
Disability
Equal Compensation
Genetic Information
Harassment
National Origin
Pregnancy
Race/Color
Religion
Retaliation
Sex
Sexual Harassment
Prohibited Practices
Recordkeeping
EEO Reports/Surveys
"EEO Is The Law" Poster
Training
Other Employment Issues
Federal Agencies
Overview
Federal Employees & Applicants
Federal Complaint Process
Discrimination by Type
Other Federal Protections
Prohibited Practices
Federal EEO Coordination
Federal Agency EEO Directors
Laws, Regulations, Guidance & MOUs
Management Directives & Federal Sector Guidance
Federal Sector Alternative Dispute Resolution
Federal Sector Reports
Appellate Decisions
Digest of EEO Law
Form 462 Reporting
Federal Training & Outreach
Contact Us
Contact EEOC
Find Your Nearest Office
Frequently Asked Questions
About EEOC
Overview
The Commission
Meetings of the Commission
Open Government
Newsroom
Laws, Regulations, Guidance & MOUs
Budget & Performance
Enforcement & Litigation
Initiatives
Interagency Programs
Publications
Statistics
Outreach & Education
Legislative Affairs
FOIA & Privacy Act
Doing Business with EEOC
Jobs & Internships
EEOC History
Office of Inspector General
Home > About EEOC > Office of Inspector General
OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO CONGRESS
October 01, 2009 - March 31, 2010
OIG VISION
Agents Igniting Change and Fostering Accountability, Effectiveness and Efficiency in Government
OIG MISSION
OIGs mission is to (1) conduct and manage independent audit, evaluations, and investigations concerning Agency programs; (2) prevent and detect against Agency fraud, waste, and abuse; and (3) promote economy and efficiency, and effectiveness in Agency programs and operations.
CONTENTS
A Message from the Inspector General
Executive Summary
Introduction
The Audit and Evaluation Program
Completed Projects
Ongoing Audit and Evaluation Projects
Audit Follow-up
The Investigation Program
Investigative Inquiries
Completed Investigations
Ongoing Investigative Activities
Other OIG Program Activities
OIG Professional Activities
Appendixes
Appendix I. Final Office of Inspector General Audit and Evaluation Reports
Appendix II. Index of Reporting Requirements
Appendix III. Single Audit Act Reports
A MESSAGE FROM THE INSPECTOR GENERAL
In accordance with the Inspector General Act of 1978, as amended, I herewith submit the Semiannual Report for the period October 1, 2009 through March 31, 2010, which summarizes the major activities of our office for the reporting period. Section 5 of the Inspector General Act requires the Chair to transmit this report to the appropriate committees or subcommittees of the Congress within thirty days of its receipt.
The six-month reporting period ending March 31, 2010, marked a new era in the history of the U.S. Equal Employment Opportunity Commission and the Office of Inspector General. In this connection, we are pleased to welcome the new head of our Agency, the Honorable Jacqueline A. Berrien, along with newly appointed Commissioners Chai Feldblum and Victoria Lipnic, and General Counsel P. David Lopez. With the addition of the newly appointed commissioners, who join Commissioners Stuart J. Ishimaru and Constance Barker, the Commission will have its full compliment of five Commissioners.
We take this opportunity, as well, to recognize the service of Commissioner Stuart J. Ishimaru who adeptly served as the Acting Chair of the Commission from January 20, 2009 until April 7, 2010.
In January 2010, following thirty-six years of Federal service, thirteen of which were as the Inspector General for the Commission, Aletha L. Brown concluded a distinguished public service career. Her contributions to the Commission and the Federal Inspectors General community were notable and she will be missed. We wish her the best in the years ahead.
In the midst of this season of change the OIG remains focused on the job of preventing and detecting fraud, waste and abuse, and in promoting economy, efficiency and effectiveness in the Commissions programs and operations, as reflected throughout the pages of this report.
In closing, I would like to thank the dedicated staff of the OIG for their continued commitment to pursuing the mission of this office and that of the Commission. We look forward to working with the new Chair and her leadership team as we continue our oversight efforts.
Regards,
Milton A. Mayo Jr.
Acting Inspector General
April 30, 2010
EXECUTIVE SUMMARY
This semiannual report is issued by the Equal Employment Opportunity Commissions (EEOCs) Office of Inspector General (OIG) pursuant to the Inspector General Act of 1978, as amended. It summarizes the OIGs activities and accomplishments for the period of October 1, 2009, through March 31, 2010.
During the reporting period the OIG issued five audit products, closed eight investigative matters, and received 527 investigative inquiries, of which 328 were charge-processing issues, 70 were Title VII complaints, and 129 were other investigative allegations.
Included among the OIGs completed, newly initiated, and ongoing audit, evaluation and investigative projects are:
Cotton & Company, LLP, issued an unqualified opinion on the EEOC's FY 2009 Consolidated Financial Statements. In the Independent Auditors Report on Internal Controls, no material weaknesses were identified.
Cotton & Company, LLP, issued its FY 2009 management letter report on January 12, 2010. The report identified 14 matters in FY 2009 that warranted managements attention.
The firm of Harper, Rains, Knight and Company, P.A. commenced the FY 2010 financial statement audit of the EEOC.
Pursuant to Federal Information Security Management Act requirements, the OIG conducted an independent evaluation of the Agencys information security program. This years independent evaluation did not disclose any conditions that required reporting.
Conducted testing of internal controls of a field office covering the verification and validation of the federal hearings process, controls over the use of purchase cards and convenience checks, time and attendance reporting, and property management. A draft report is planned for issuance in the fourth quarter of FY 2010.
Began preparation for the first ever review of the EEOCs State and Local Programs. The OIG will award a contract to conduct the review in the fourth quarter of FY 2010.
Completed various investigations involving an array of allegations including- prohibited personnel practices, violation of an EEOC-FEPA work share agreement, time and attendance fraud, and destruction of official records.
Ongoing investigations in several field offices involving prohibited personnel practices, ethics violations, conflicts of interest, time and attendance fraud, falsification of government records, misuse of government vehicles, impersonation of a Federal official, theft of government property, threats against the Agency, forgery, and misuse of a government credit card.
INTRODUCTION
The Equal Employment Opportunity Commission
The Equal Employment Opportunity Commission (EEOC) is the Federal agency responsible for enforcement of Title VII of the Civil Rights Act of 1964, as amended; the Equal Pay Act of 1963; the Age Discrimination in Employment Act of 1967; Section 501 of the Rehabilitation Act of 1973 (in the Federal sector only); Title I of the Americans with Disabilities Act of 1990 and Americans with Disabilities Act Amendments Act of 2008; the Civil Rights Act of 1991; and the Lilly Ledbetter Fair Pay Act of 2009. These statutes prohibit employment discrimination based on race, sex, color, religion, national origin, age, or disability. EEOC is also responsible for carrying out Executive Order 12067, which promotes coordination and minimizes conflict and duplication among Federal agencies that administer statutes or regulations involving employment discrimination.
EEOC is a bipartisan commission composed of five presidentially appointed members, including a chair, a vice chair, and three commissioners. The chair is responsible for the administration and implementation of policy and for the financial management and organizational development of the commission. The vice chair and the commissioners equally participate in the development and approval of the policies of EEOC, issue charges of discrimination where appropriate, and authorize the filing of lawsuits. Additionally, the President appoints a general counsel, who is responsible for conducting litigation under the laws enforced by the commission.
On March 27, 2010, President Barack Obama made recess appointments of Jacqueline A. Berrien, as Chair of the EEOC; Chai Feldblum and Victoria A. Lipnic as Commissioners; and P. David Lopez as General Counsel. With the addition of the newly appointed commissioners, who join Commissioners Stuart J. Ishimaru and Constance Barker, the Commission will have its full compliment of five Commissioners.
Commissioner Stuart J. Ishimaru served as the Acting Chair of the Commision from January 20, 2009 until April 7, 2010.
The Office of Inspector General
The U.S. Congress established an Office of Inspector General (OIG) at EEOC through the 1988 amendments of the Inspector General Act of 1978, which expanded authority to designated Federal entities to create independent and objective OIGs. Under the direction of the Inspector General (IG), the OIG meets this statutory responsibility by conducting and supervising audits, evaluations, and investigations relating to the programs and operations of the Agency; providing leadership and coordination; and recommending policies for activities designed to promote economy, efficiency, and effectiveness in the administration of programs and operations.
In October 2008, Congress passed the Inspector General Reform Act of 2008, which generally buttressed the independence of IGs, increased their resources, and held them more accountable for their performance. Inspector General Reform Act provisions do the following:
Provide that IGs shall be appointed without regard to political affiliation and solely on the basis of integrity and demonstrated ability in accounting, auditing, financial analysis, law, management analysis, public administration, or investigations.
Require that notice of the transfer or removal of an IG be provided to both houses of Congress no less than 30 days before the action. This does not apply to other personnel actions involving IGs.
Establish the pay of statutory IGs at Executive Schedule III plus 3 percent. Establish the pay of designated Federal entity IGs at no less than the average pay (including bonuses) of that entitys senior-level executives (such as the general counsel).
Prohibit cash awards and cash bonuses to IGs.
Provide that each statutory IG obtain legal advice from a counsel reporting directly to that IG or to another IG. Designated Federal entity IGs must (1) appoint a counsel who will report directly to that IG, (2) obtain the services of a counsel reporting to another IG on a reimbursable basis, or (3) obtain legal advice from legal staff of the Council of the Inspectors General on Integrity and Efficiency (IG Council; discussed below) on a reimbursable basis. The act expressly does not alter the duties of the general counsel of the Agency. The counsel to the IG shall perform such functions as the IG may prescribe.
Establish an IG Council. The IG Councils mission is to address integrity, economy, and effectiveness issues that transcend individual agencies and to increase the professionalism and effectiveness of IG personnel.
Direct IGs to send budget requests to agency heads, specifying the amount requested for training. In the agencys submission to OMB, the head of the agency shall include a breakout for IG funding, including the amounts for training and the IG Council as well as any comments of the affected IG with respect to the proposal. OMB must include in the Presidents budget submission the amount requested by the President for each IG, the amount requested by the President for training, the amount requested by the President for support for the IG Council, and if an IG determines that the budget submitted by the President would substantially inhibit his or her mission performance, any comments by the affected IG.
Clarify subpoena power as extending to data stored in any medium (including information stored electronically and in any tangible thing).
Allow designated Federal entity IGs to apply for statutory law enforcement authority and to participate in the Program Fraud Civil Remedies Act.
Require OIGs to discuss inspection and evaluation reports in semiannual reports similar to the current reporting of audit reports.
Require agency home pages to link directly to IG Web sites. Also require IGs to post reports and audits on their Web sites within three days of the date they become publicly available. Require OIGs to create a direct link from their home pages to a Web site with posted audits and reports; make summaries of reports available on their Web sites; post reports in a format that is searchable, downloadable, and easily printed; and include a link for individuals to anonymously report waste, fraud, or abuse.
Define OIGs as separate agencies and IGs with functions, powers, and duties of agency head for voluntary separations/buyouts, early outs, reemploying annuitants, waiving mandatory separation for law enforcement officers, and all provisions relating to Senior Executive Service. The provisions also add authority to reemploy retired annuitants and replace agency directors with the IG Council for reviewing and submitting nominees for presidential rank awards.
The OIG is under the supervision of the IG, an independent EEOC official subject to the general supervision of the chair. The IG must not be prevented or prohibited by the chair or any other EEOC official from initiating, carrying out, or completing any audit, investigation, evaluation, or other inquiry or from issuing any report.
The IG provides overall direction, coordination, and leadership to the OIG; is the principal advisor to the chair in connection with all audit and investigative matters relating to the prevention, identification, and elimination of waste in any EEOC program or operation; and recommends the proper boundaries of audit and investigation jurisdiction between the OIG and other EEOC organizations. The IG also develops a separate and independent annual budget for the OIG; responds directly to inquiries from the public, Congress, or the news media; and prepares press releases, statements, and other information about the OIGs activities.
The Deputy Inspector General (DIG) serves as the alternate to the IG and participates fully in policy development and management of the diverse audit, investigation, evaluation, and support operations of the OIG. The DIG also ensures that the Audit, Evaluation, and Investigation Programs (AEIP) address their mission, goals, and objectives in accordance with the Inspector General Act, other laws, Agency policy, and congressional requests. The DIG provides overall direction, program guidance, and supervision to the AEIP. AEIP staff conducts audits, evaluations, and investigations of EEOC operations and activities and prepares reports for issuance to the chair, EEOC management, and Congress.
The Counsel to the Inspector General (CIG) is the sole legal advisor in the OIG, providing advice in connection with matters of importance to the OIG. The CIG provides day-to-day guidance to the OIGs investigation team and is the primary liaison with Agency legal components and the Department of Justice. The CIG assists the IG and DIG in the development and implementation of the OIGs policies and procedures. The CIG conducts legal reviews of all audit, evaluation, and investigation reports; reviews proposed and revised legislation and regulations; and recommends appropriate responses and actions.
In January 2010, following thirty-six years of Federal service, thirteen of which were as the Inspector General for the Commission, Aletha L. Brown concluded a distinguished public service career. Her contributions to the Commission and the Federal Inspectors General community were notable and she will be missed. We wish her the best in the years ahead.
Upon Inspector General Browns departure, Deputy Inspector General Milton A. Mayo Jr. began serving in the position of Acting Inspector General, and Counsel to the Inspector General Joyce T. Willoughby began serving as the Acting Deputy Inspector General.
THE AUDIT AND EVALUATION PROGRAM
The Audit and Evaluation Program supports the OIGs strategic goal to improve the economy, efficiency, and effectiveness of EEOC programs, operations, and activities.
COMPLETED PROJECTS
FY 2009 Audit of the Consolidated EEOC Financial Statements
The OIG contracted with Cotton & Company, LLP, to perform the consolidated financial statement audit of the EEOC. This audit is required by the Accountability of Tax Dollars Act of 2002. On November 13, 2009, Cotton & Company, LLP, issued an unqualified opinion on the EEOC's FY 2009 Consolidated Financial Statements. In the Independent Auditors Report on Internal Controls, no material weaknesses were identified. However, the auditors identified significant deficiencies in controls relating to time and attendance and in controls over revenue and receivables. Management concurred with the findings and recommendations and is taking steps to correct the noted deficiencies. The Independent Auditors Report on Compliance with Laws and Regulations disclosed no instances of noncompliance with required laws and regulations specified under Government Auditing Standards or Office of Management and Budget Bulletin 07-04.
FY 2009 EEOC Financial Statement Audit Management Letter
Cotton & Company, LLP, issued its FY 2009 management letter report on January 12, 2010. The report identified 14 matters in FY 2009 that warranted managements attention. Among the internal control issues discussed in the report were controls over budgetary posting logic, supporting documentation for transactions, controls over property and equipment, controls over undelivered orders and accounts payable, quality control procedures over financial statements, vulnerability assessment results, federal personnel/payroll system client control considerations, controls over inactive momentum accounts, and segregation of duties. Management concurred with the findings and recommendations and provided corrective action plans addressing each issue.
Agency Compliance with the Federal Managers Financial Integrity Act (FMFIA) Agency policy directive EEOC Order 195.001 Management Accountability and Controls requires the OIG to annually provide a written advisory to the head of the Agency regarding whether the management control evaluation process complied with the OMB guidelines. The OIG issued its annual report to the acting chair on November 10, 2009, validating the Agencys compliance with the FMFIA. To make this determination the OIG reviewed:
assurance statements submitted by headquarters and district office directors attesting that their systems of management accountability and control were effective and that resources under their control were used consistent with the Agencys mission and in compliance with the laws and regulations set out in the FMFIA,
all functional area summary tables and functional area reports submitted by headquarters and field offices, and
the Office of Research, Information and Plannings (ORIPs) FY 2009 FMFIA Assurance Statement and Assurance Statement Letter, with supporting documents.
The OIG concluded that the Agencys management control evaluation was conducted in accordance with OMBs standards and concurred with ORIPs assertion that the Agency had no material weaknesses during the reporting cycle. The OIG concurred with ORIP's reporting of 18 instances of financial nonconformances. Four of those financial nonconformances were identified in FY 2008. The Agency has implemented, or is in the process of implementing, corrective action plans to resolve the remaining nonconformances in FY 2010.
Inspection of Former Agency Employees Computer
The ORIP requested that the OIG conduct an inspection of a former EEOC employees computer to determine if the employee had deleted important Agency files prior to termination. The inspection of the employees computer disclosed that important files were in fact deleted from the computers hard drive; however, the files were recoverable. On December 2, 2009, the OIG issued a management advisory informing ORIP of our findings and directing ORIP to contact the Office of Information Technology for assistance in recovering the files.
FY 2009 Independent Evaluation of the Agencys Adherence to the Federal Information Security Management Act (FISMA)
As required by FISMA, the OIG conducted an independent evaluation of the Agencys information security program. The independent evaluation was conducted to ensure that the Agency adhered to established information security practices as prescribed by various Federal agencies, including the National Institute of Standards and Technology and the OMB. This years independent evaluation did not disclose any conditions that required reporting. Also as part of the independent evaluation, the OIG electronically submitted its annual Inspector General Report to OMB.
NEW AND ONGOING AUDIT AND EVALUATION PROJECTS
Review of EEOC Relocation Planning
The primary purpose of this review is to determine how EEOC can improve its efficiency and effectiveness in the planning and execution of future EEOC office relocations. The OIG issued a preliminary draft report to the Office of the Chief Financial Officer (OCFO) in February 2010 and received OCFOs comments in March 2010. The OIG plans to issue the final report in the third quarter of FY 2010.
Internal Control Review of the Miami District Office
The OIG conducted internal control testing for the Miami District Office. The review included the verification and validation of the federal hearings process, controls over the use of purchase cards and convenience checks, time and attendance reporting, and property management. A draft report is planned for issuance in the fourth quarter of FY 2010.
FY 2010 Audit of the Consolidated EEOC Financial Statements
The OIG contracted with Harper, Rains, Knight & Company, P.A., of Ridgeland, Mississippi, to perform the 2010 Financial Statement Audit of EEOC, which is required by the Accountability of Tax Dollars Act of 2002. The entrance conference was held on February 24, 2010. Fieldwork is ongoing, and the audit opinion is expected to be issued by November 15, 2010, to meet OMBs deadline and to be included in the Agencys 2010 Performance and Accountability Report. Additionally, a management letter report will be issued shortly after the financial statement audit, identifying any internal control weaknesses.
Review of State and Local Programs
The OIG commenced preparation for its first review of the Office of Field Programs State and Local Programs. The scope of the review will focus on the EEOCs partnership with Fair Employment Practice Agencies (FEPAs). The EEOC provides substantial annual funding ($28,272,000 for FY 2010) to state and local partners, known as FEPAs, to conduct investigations and resolutions of employment discrimination charges. Work performed by FEPAs, both EEOC funded and non-EEOC funded, is critical in eliminating employment discrimination. During March 2010, OIG staff met with the Office of Field Program (OFP) staff to explore issues concerning the effectiveness of EEOCs FEPA activities. OIG will award a contract to conduct the review in the 4th quarter of FY 2010.
AUDIT FOLLOW-UP
Audit follow-up is an integral part of good management and is a shared responsibility of agency management officials and auditors. Corrective action taken by management on resolved findings and recommendations is essential to improving the effectiveness and efficiency of Agency operations. Therefore, EEOC needs to review and enhance the corrective action process to ensure the prompt resolution and implementation of audit recommendations.
Section 5(a)(1) of the Inspector General Act of 1978, as amended, requires that semiannual reports include a summary description of significant problems, abuses, and deficiencies relating to the Agencys administration of programs and operations disclosed by the OIG during the reporting period. The following table shows reports issued during this reporting period (October 1, 2009March 31, 2010) that contained findings.
Reports Issued During This Reporting Period
Fiscal Year
Report Number
Report Title
Date Issued
Recommendations
2009
2009-05-FIN
FY 2009 Financial Statement Audit Management Letter Report
1/12/2010
Yes
2009
2009-04-FIN
FY 2009 Financial Statement Audit Report
11/13/2009
Yes
As required by Section 5(a)(3) of the Inspector General Act of 1978, as amended, semiannual reports shall provide an identification of each significant recommendation described in previous semiannual reports on which corrective action has not been completed. OIG staff met with the Agency follow-up officials on March 24, 2010, and noticed no corrective action plans had been received since our meeting held in August 2009. It was noted that three prior open issues had been closed since our last meeting. The OIG fall 2009 Semiannual Report to Congress disclosed 11 reviews with 55 open recommendations. The OIG is reporting a total of 11 reviews with a total of 52 open recommendations for this reporting period. The following table shows those recommendations for which corrective action has not been completed.
Recommendations for Which Corrective Actions Have Not Been Completed
Fiscal Year
Report Number
Report Title
Date Issued
2009
2008-06-FIN
FY 2008 Financial Statement Audit Management Letter Report
2/12/2009
Open Recommendations:
Implement training procedures to ensure familiarity with budgetary accounting and reporting guidelines published by the Treasury.
Review and revise controls in place to ensure that documentation for all transactions is maintained and readily available for review.
Obtain and file all documentation supporting personnel and payroll actions taken and ensure that information is available for review upon request.
Implement training for all personnel to ensure that they are aware of EEOC policies for capitalized equipment to ensure recordings in the general ledger and the subsidiary ledger are accurate.
Review and refine controls over the reconciliation of the property subsidiary ledger to the general ledger to ensure that differences are identified and resolved in a timely manner.
Report offices that do not submit property certifications in accordance with established policy to the Office of the Chair and require delinquent offices to explain.
Revise review procedures over aged accounts payable and undeliverable orders (UDOs) to require that all EEOC offices respond by fiscal year-end to ensure that invalid items are identified and deobligated before year-end financial reports are prepared.
Review and refine controls over the accrual process to ensure that accruals are processed to recognize goods and services that have been received.
Implement procedures requiring EEOC personnel to identify accounts payable over three months old and determine their continued validity.
Improve quality control procedures for reviewing final versions of financial statements and related footnotes prior to submission to auditors.
Develop and implement policies and procedures for ensuring that application security violations for outsourced applications are appropriately reviewed and reported.
Develop policies for formally analyzing and reviewing all roles to identify incompatible duties, and develop and document a process for outlining functions that have been identified as having incompatible abilities.
Fiscal Year
Report Number
Report Title
Date Issued
2009
2008-05-FIN
FY 2008 Financial Statement Audit Internal Control Report
11/14/2008
Open Recommendations:
Review and refine controls over time and attendance reporting that require incomplete time sheets be returned to employees before certification.
Ensure that information submitted to Office of Human Resources is processed in a timely manner and training is provided to timekeepers and approving officials.
Review accrual procedures and refine those procedures to ensure that all revenue not earned at year-end is properly classified as deferred in financial statements.
Work with Revolving Fund Division (RFD) Director to ensure that information recorded in the general ledger is accurately recorded based on supporting documentation.
CFO coordinate with RFD to ensure that timely, complete, and accurate reconciliations are performed between the general ledger and the subsidiary ledger and that the differences are identified.
Fiscal Year
Report Number
Report Title
Date Issued
2008
2007-11-RFPERF
Performance Audit of the Equal Employment Opportunity Commissions Education, Training, and Technical Assistance Program Revolving Fund
8/26/08
Open Recommendations:
Operate the Revolving Fund as an independent program within the Agency.
Approve the establishment of the EEOC Training Institute Steering Committee.
Update the Revolving Fund Business Plan to reflect strategic direction, vision, and goals over the next 3 to 5 years.
Initiate cross-training between job functions where reasonable and practical.
Reconcile spending plans to amounts recorded in the accounting system.
Seek professional assistance to develop a more effective Revolving Fund Division budget method to project financial information to plan training events and monitor goals.
Fiscal Year
Report Number
Report Title
Date Issued
2008
2008-12-AEP
FY 2008 Independent Audit of EEOC Privacy Program
9/30/08
Open Recommendations:
Develop and implement policies and procedures to provide periodic reminders to all employees and contractors of their responsibilities to protect sensitive personally identifiable information (PII) in both electronic and hard-copy format.
Develop, document, and implement procedures to monitor compliance with EEOC policies and procedures related to the protection, processing, storage, and destruction of sensitive hard copy (PII).
Centralize administration of websites privacy policies.
Ensure that all privacy policies posted to EEOC websites comply with OMB requirements.
Ensure that all privacy policies are posted on (a) EEOCs principal Web site; (b) any known, major entry points to EEOC sites; and (c) any Web page that collects substantial information in identifiable form.
Review all privacy laws and regulations, and identify and document those applicable to EEOC.
Develop, document, and implement a formal process for ensuring that all new privacy-related laws and regulations are evaluated to determine whether EEOC is required to follow them.
Continue with the planned action to implement two-factor authentication with the implementation of Homeland Security Presidential Directive12 badges.
Fiscal Year
Report Number
Report Title
Date Issued
2008
2008-13-AEP
Independent Evaluation of Agency Compliance with Federal Information Systems Management Act
9/24/08
Open Recommendations:
Develop and implement an Agency Awareness Training Plan and Program that meets the standards described in National Institute of Standards and Technology Special Publications 800-50, Building and Information Technology Security Awareness and Training Program.
Implement plans and procedures with the Agency field offices to identify and excess all old and nonworking information systems by April 30, 2008. Also ensure that information is appropriately destroyed prior to the systems excess.
Develop and implement policies and procedures to provide periodic reminders to all employees and contractors of their responsibilities to take reasonable measures to safeguard authenticators (passwords) from being exposed to unauthorized personnel.
Fiscal Year
Report Number
Report Title
Date Issued
2008
2008-03-AMR
Oversight of Federal Agency Reporting Management Directive715 (MD-715) and Related Topics
9/26/08
Open Recommendations:
Develop a written plan, including a schedule, to ensure timely training for staff with major oversight assignments.
Assess the Federal Sector Programs organizational structure based on the currently authorized positions in order to create more stability.
Develop a plan with milestones for making MD-715 a Web-based submission process.
Ensure that all agencies receive Office of Federal Operations feedback on MD-715 in time to prepare fully for FY 2008 submissions.
Obtain customer feedback on MD-715 and other oversight issues using a real-time blog or similar mechanism.
Require Federal agencies to submit Part G, their Equal Employment Opportunity assessment, with their annual MD-715 submissions.
Fiscal Year
Report Number
Report Title
Date Issued
2007
2007-10-RFFIN
FY 2007 Financial Statement Audit of EEOC Training and Technical Assistance Internal Control
11/15/07
Open Recommendations:
Implement a policy to periodically review undelivered orders (UDOs) to ensure that all recorded UDOs are adequately supported.
Fiscal Year
Report Number
Report Title
Date Issued
2007
2007-12-AMR
Evaluation of EEOC Field Office Continuity of Operations (COOP)
3/27/08
Open Recommendations:
Direct field office directors to prepare COOP plans and activities to ensure that field offices are adequately prepared for a COOP event.
Ensure that all field office staff take the COOP Awareness Course.
Develop and implement policy and procedures instructing field office staff to store all mission-critical electronic files on Agency-managed network drives.
Fiscal Year
Report Number
Report Title
Date Issued
2007
2007-08-FIN
FY 2007 Financial Statement Audit
11/15/07
Open Recommendations:
Office of Human Resources should review and refine time and attendance controls.
Fiscal Year
Report Number
Report Title
Date Issued
2007
2007-09-FIN
FY 2007 Management Letter Report
01/16/08
Open Recommendations:
Coordinate with the Director of the Revolving Fund Division to establish procedures to recognize revenue on a full accrual basis consistent with generally accepted accounting principles.
Complete background investigations for all employees and contractors in accordance with Federal and EEOC guidelines.
Implement training procedures for financial personnel ensuring familiarity with Treasury guidelines.
Fiscal Year
Report Number
Report Title
Date Issued
2006
2006-04-FIN
FY 2006 Management Letter Report
02/09/07
Open Recommendations:
Report headquarters offices to the Office of the Chair and field offices to the Director, Office of Field Programs for their noncompliance with the property certification policy.
Ensure that all Forms 629 (Reports of Loss, Theft, or Incident) are provided to the security specialist in a timely manner.
EEOCs Chief Financial Officer should refine the accounts payable and UDO review process to ensure that all recorded balances at year-end are valid and require personnel to contact vendors to obtain invoices for accounts payable more than three months old.
EEOCs Chief Financial Officer should improve quality control for reviewing final versions of the financial statements and related footnotes to ensure that financial information is complete, accurate, consistent, and timely.
As required by Section 5(a)(10) of the Inspector General Act of 1978, as amended, semiannual reports shall include a summary of each audit report issued before the start of the reporting period for which no management decision has been made by the end of the reporting period. The OIG has no audit or evaluation reports that were issued before the reporting period began for which no management decision has been made.
THE INVESTIGATION PROGRAM
The Investigation Program supports the OIGs strategic goal to focus limited investigative resources on issues that represent the greatest risk and offer the maximum opportunity to detect and prevent fraud, waste, and abuse in EEOC programs and operations.
INVESTIGATIVE INQUIRIES
Investigative Inquiries Received October 1, 2009March 31, 2010
Allegations
Total
Charge processing
328
Other statutes
53
Title VII
70
Mismanagement
6
Ethics
5
Backgrounds
12
Theft
2
Other criminal violations
40
Fraud
11
Total
527
COMPLETED INVESTIGATIONS
Possible Prohibited Personnel Practice
The Office of Inspector General (OIG) learned of a possible prohibited personnel practice involving the Agencys filling of a newly created management vacancy with an EEOC employee serving under a limited-term Senior Executive Service (SES) appointment. The OIGs review of the matter revealed that the Agency created a senior-level management position within a headquarters office and filled that position through a noncompetitive appointment. Our review revealed further that the employee selected for the position had previous Federal government employment before being appointed to the limited-term SES position and was therefore a reinstatement-eligible employee. Based on the employees previous government service, the appointment to the newly created position did not result in a promotion or other similar advantage to the employee. Therefore, according to the Office of Personnel Management, the noncompetitive appointment of the former limited-term SES employee was permissible under Federal employment policy.
Contract Fraud
The OIG was contacted by a confidential informant employed by a Fair Employment Practice Agency (FEPA) who reported what he believed to be the FEPAs violation of its work-share agreement with EEOC in connection with the FEPAs processing of discrimination complaints. Specifically, the informant stated the FEPA was holding charges of discrimination in abeyance to avoid exceeding its annual contractual quota with the EEOC, and submitting the charges for payment in the next fiscal year. The OIG conducted a preliminary investigative review of the allegations and concluded that there did not appear to be any indication of contract fraud or other criminal conduct. The matter has been referred to the OIGs audit team for review in connection with OIGs FY 2010 evaluation of the Agencys State and Local Programs.
Conflict of Interest
The OIG received a request from the Office of Legal Counsel involving the actions of an EEOC trial attorney who was alleged to have engaged in an official action in matters involving entities in which the employee held a financial interest. The value of the interest held by the employee was in excess of $15,000 in stock holdings, which exceeded the regulatory exemption amount allowed under 5 C.F.R. §2640.202. The stock was held in a company that was a respondent employer, in which the trial attorney rendered an opinion memorandum in the case. The OIG determined that at the time the employee was officially working on the case, the employee held no financial interest in the respondent employer. Accordingly, based on the evidence that the trial attorney did not own stock in the respondent employer at the time the opinion was rendered, no conflict of interest existed. The case was closed.
Time and Attendance Fraud
The OIG received a complaint from the Office of Special Counsel and subsequently the same complaint from the Government Accountability Offices FraudNet unit, alleging that employees in an EEOC district office were engaged in abuse of power, time and attendance fraud, acts of retaliation toward fellow employees, and discrimination against fellow employees. The OIG conducted a review of the matter and determined that the allegations of discrimination were outside of its purview. Moreover, most of the individuals who were allegedly involved in the misconduct were no longer employed by the EEOC, and generally there was insufficient evidence to support the allegations. Accordingly, the matter was closed.
Destruction of Records
The OIG was contacted by a district office concerning allegations that one or more investigators in a local office had possibly engaged in the destruction of intake records to avoid work or management scrutiny. As a result of the investigation, no evidence was obtained establishing the identity of any person or persons possibly involved in the destruction of records. Furthermore, it was determined that local and district managers had instituted numerous internal control improvements in the intake process of the office, thus reducing the chance for possible destruction of records. Based on insufficient evidence to identify who may have been involved in the alleged destruction of intake records, and the corrective action taken by management, the matter was closed.
Fraud/Conflict of Interest
The OIG received a complaint involving an investigator in a field office of the EEOC. The investigator was accused of attempting to refer a charging party in a case to an attorney with whom he had a personal connection. The investigator was also accused of failing to review the complaint of discrimination file. [A11]The OIG conducted a review of the complaint and determined that the Agency had taken corrective action that addressed the allegations. Based on our findings, we concluded that no further action was warranted.
Gross Mismanagement
The OIG received separate complaints from an EEOC employee and from the Government Accountability Office that an Agency field office director had engaged in gross mismanagement, including committing prohibited personnel practices, creating a hostile work environment, and demonstrating biased behavior in the investigative process favoring charging parties over respondents. Upon conducting our investigation of these allegations, it was disclosed that Agency management had undertaken its own review of the allegations, which resulted in the Agency taking corrective action, including reassigning the office director and remedying the directors prohibitive personnel actions. In light of the Agencys measures, the OIG determined that no further investigative activity was warranted, and the matters were closed.
Retaliation
The OIG received a complaint from an EEOC employee alleging gross mismanagement by an EEOC field office, in particular, that the director committed fraud, waste, and abuse by engaging in disparate treatment of staff based on race-ethnicity and by failing to ensure that the office maintained the equipment (e.g., a fax machine) needed to support the staffs efforts to perform their work. The employee further alleged that there was a lack of compliance with office rules. After investigating the matter, the OIG determined that there was insufficient evidence to support the claim of gross mismanagement. Moreover, the allegations of racial disparity were outside the scope of our purview and had been reviewed by the Agencys internal EEO function. Finally, the director resigned from his position. In light of the foregoing, this matter was closed.
ONGOING INVESTIGATIVE ACTIVITY
The OIG has ongoing investigations in several field offices involving prohibited personnel practices, ethics violations, conflicts of interest, time and attendance fraud, falsification of government records, misuse of government vehicles, impersonation of a Federal official, theft of government property, threats against the Agency, forgery, and misuse of a government credit card.
OTHER OIG PROGRAM ACTIVITIES
Review of Single Audit Act Reports
During the reporting period, the OIG reviewed 42 audit reports issued by public accounting firms concerning Fair Employment Practice Agencies (FEPAs) that have work-sharing agreements with EEOC. There were no audit findings for the FEPAs that involved EEOC funds (see Appendix III). The Single Audit Act of 1984 requires recipients of Federal funds to arrange for audits of their activities. Federal agencies that award these funds must receive annual audit reports to determine whether prompt and appropriate corrective action has been taken in response to audit findings.
OIG PROFESSIONAL ACTIVITIES
Below are the professional activities for the OIG:
Staff Certifications
The OIG has a highly qualified and very well credentialed staff dedicated to the mission of the office. The OIG staff possesses the following certifications:
Certified Fraud Examiner
Certified Government Financial Manager
Certified High Technology Criminal Investigator, High Tech Crime Institute
Certified Information Security Manager
Certified Inspector GeneralAuditor
Certified Inspector GeneralInvestigator
Certified Public Accountant
American University: Key Executive Leadership Certificate Program
Georgetown University: Senior Executive Leadership Certificate
Ethics Instructor
Association Affiliations
The OIG staff maintains the following affiliations with associations related to the work of the OIG:
American Bar Association
American Evaluation Association
American Institute of Certified Public Accountants
Association of Government Accountants
Association of Inspectors General
Association of Certified Fraud Examiners
Council of Counsels to the Inspectors General
Council of Inspectors General for Integrity and Efficiency (CIGIE)Integrity Committee
Federal Law Enforcement Officers Association
Information Systems Audit and Control Association
The Institute of Internal Auditors
International Association of Privacy Professionals
Maryland Association of Certified Public Accountants
Toastmasters International
Maryland State Bar Association
National Organization for Black Law Enforcement Executives
Information Systems Audit and Control Association
National Institute of Standards and Technology Forum
Federal Information Systems Security Educators' Association
Council of Inspectors General for Integrity and EfficiencyEvaluation and Inspections Roundtable
Professional Training
During the reporting period, the OIG staff participated in the following training courses:
Council of Inspectors General on Integrity and Efficiency Coaching Session on the Guide for Conducting External Peer Reviews of the Audit Organizations of Federal Offices of Inspector General
Essentials of Leadership Training
CIGIE assessment of Lincoln Leadership Institute
APPENDIXES
APPENDIX I. FINAL OFFICE OF INSPECTOR GENERAL AUDIT AND EVALUATION REPORTS
Report Title
Date Issued
Questioned Costs
Funds Put to Better Use
Unsupported Costs
Report on the Strategic Management of Human Capital
1/12/2001
$0
$0
$0
Management Advisory on Internal Controls for the Atlanta District Office
11/13/2009
$0
$0
$0
Visual Inspection of Former Agency Employee's Computer
12/2/2009
$0
$0
$0
APPENDIX II. INDEX OF REPORTING REQUIREMENTS
Inspector General Act Citation
Reporting Requirements
Page
Section 4(a)(2)
Review of Legislation and Regulations
NA
Section 5(a)(1)
Significant Problems, Abuses, and Deficiencies
922
Section 5(a)(2)
Recommendations with Respect to Significant Problems, Abuses, and Deficiencies
911
Section 5(a)(3)
Significant Recommendations Included in Previous Reports on Which Corrective Action Has Not Been Completed
1218
Section 5(a)(4)
Matters Referred to Prosecutive Authorities
NA
Section 5(a)(5)
Summary of Instances Where Information Was Refused
NA
Section 5(a)(6)
List of Audit Reports
26
Section 5(a)(7)
Summary of Significant Reports
911
Section 5(a)(8)
Questioned and Unsupported Costs
26
Section 5(a)(9)
Recommendations That Funds Be Put to Better Use
26
Section 5(a)(10)
Summary of Audit Reports Issued Before the Commencement of the Reporting Period for Which No Management Decision Has Been Made
18
Section 5(a)(11)
Significant Management Decisions That Were Revised During the Reporting Period
NA
Section 5(a)(12)
Significant Management Decisions with Which the Office of Inspector General Disagreed
NA
APPENDIX III. SINGLE AUDIT ACT REPORTS
The State of Louisiana, FY 2008
The State of Tennessee, FY 2008
The State of Kansas, FY 2008
The State of Arizona, FY 2008
The State of Wyoming, FY 2008
The State of Utah, FY 2008
The State of Connecticut, FY 2008
The State of New Jersey, FY 2008
The State of Vermont, FY 2008
The State of Massachusetts, FY 2008
The State of Rhode Island, FY 2008
The State of Maine, FY 2008
The State of North Carolina, FY 2008
The State of Virginia, FY 2008
The State of Nevada, FY 2006
The State of Nevada, FY 2008
The Confederated Tribes and Bands of the Yakama Nation, FY 2008
The Government of the District of Columbia, FY 2007
The State of Pennsylvania, FY 2007
The State of Maryland, FY 2008
The State of Delaware, FY 2008
The State of Pennsylvania, FY 2008
The State of West Virginia, FY 2008
The State of Illinois, FY 2007
The State of South Dakota, FY 2008
The State of Wisconsin, FY 2008
The State of Illinois, FY 2008
The State of Idaho, FY 2008
The State of Iowa, FY 2008
The State of Florida, FY 2008
The State of Georgia, FY 2008
The State of Oklahoma, FY 2008
The State of Nebraska, FY 2008
The State of Missouri, FY 2008
The State of Oregon, FY 2008
The State of Alaska, FY 2008
The State of Washington, FY 2008
The State of Ohio, FY 2008
The State of Kentucky, FY 2008
The State of Kentucky, FY 2007
The State of Oregon, FY 2007
The State of California, FY 2008
OIG Hotline
The OIG Hotline Program was established for Agency employees, other Government employees, contractors, and the general public to report fraud, waste, abuse, or wrongdoing by phone, e-mail
What Should you Report
You should report any concern you may have over a situation in which EEOC is the potential victim of fraudulent acts by employees, contractors, or others. It includes any violations of laws, rules, regulations, gross mismanagement, gross waste or misappropriation of funds, and abuses of authority.
OIG Hotline Contact Information
Call:
EEOC-OIG Hotline
Toll-free 1-800-849-4230
E-Mail:
E-Mail address
OIG.HOTLINE@EEOC.GOV
Write:
Equal Employment Opportunity Commission
Office of Inspector General
PO Box 77067
Washington, DC 20013-7067
Identities of Writers and Callers are always Fully Protected
Privacy Policy | Disclaimer | USA.Gov